No. 20-193
3n the

'upreme Court of the Zilititeb ikatess
CALVIN MCMILLAN,

Petitioner,
v.
STATE OF ALABAMA,

Respondent.
On Petition for Writ of Certiorari
to the Alabama Court of Criminal Appeals
Brief of Amici Curiae
Former Alabama and Florida Circuit Court Judges
In Support of Petitioner Calvin McMillan's
Petition for Writ of Certiorari
JAMES F. BOGAN III

Counsel of Record
TAMARA SERWER CALDAS
EMILIA STROMBERG
KILPATRICK TOWNSEND &
STOCKTON LLP

1100 Peachtree Street NE
Suite 2800
Atlanta, GA 30309
(404) 815-6500
jbogan@kilpatricktownsend.com
Counsel for Amici Curiae

RECEIVED
SEP 2 5 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

TABLE OF CONTENTS
Page
IDENTITY AND INTEREST OF AMICI
CURIAE

1

INTRODUCTION

3

ARGUMENT AND CITATION OF
AUTHORITIES

4

A Single, Elected Judge Cannot
Reliably Supplant the
Deliberative Moral Judgment of
Twelve Jurors.

4

Judicial Override Presented
Judges with the Impossible
Task of Weighing a Jury's
Advisory Sentencing Verdict

8

Judicial Override Constitutes a
Misguided Attempt to Comply
with Furman
CONCLUSION

11
14

11

TABLE OF AUTHORITIES
Page
FEDERAL CASES

Alabama v. Bracewell,
457 U.S. 1114 (1982)

11

Atkins v. Virginia,
536 U.S. 304 (2002)

14

Beck v. Alabama,
447 U.S. 625 (1980)

11

Caldwell v. Mississippi,
472 U.S. 320 (1985)

3

California v. Brown,
479 U.S. 538 (1987)

8

Duncan v. Louisiana,
391 U.S. 145 (1968)

3, 4

Ex parte Bracewell,
407 So. 2d 845 (Ala. 1979)

11

Ex parte Hays,
518 So. 2d 768 (Ala. 1986)

12

Franklin v. Lynaugh,
487 U.S. 164 (1988)

6

Furman v. Georgia,
408 U.S. 238 (1972)

11, 12, 13

Gregg v. Georgia,
428 U.S. 153 (1976)

3, 8

Harris v. Alabama,
513 U.S. 504 (1995)

6

Lockett v. Ohio,
438 U.S. 586 (1978)

13

iii
TABLE OF AUTHORITIES
(Continued)
Page
Lockhart v. McCree,
476 U.S. 162 (1986)

6

Lowenfield v. Phelps,
484 U.S. 231 (1988)

8

Panetti v. Quarterman,
551 U.S. 930 (2007)

5

Payne v. Tennessee,
501 U.S. 808 (1991)

9

Penry v. Lynaugh,
492 U.S. 302 (1989)

8

Powers v. Ohio,
499 U.S. 400 (1991)

11

Proffitt v. Florida,
428 U.S. 242 (1976)

12

Ring v. Arizona,
536 U.S. 584 (2002)

5

Spaziano v. Harris,
468 U.S. 447 (1984)

6, 12, 13

Taylor v. Louisiana,
419 U.S. 522 (1975)

4

Tennard v. Dretke,
542 U.S. 274 (2004)

9

Witherspoon v. Illinois,
391 U.S. 510 (1968)
Woodson v. North Carolina,
428 U.S. 280 (1976)

7, 11
3, 5

iv
TABLE OF AUTHORITIES
(Continued)
Page
Woodward v. Alabama,
571 U.S. 1045, 134 S. Ct. 405 (2013)

7, 10

STATE CASES

Aguirre-Jarquin v. State,
9 So. 3d 593 (Fla. 2009)
Beck v. State,
396 So. 2d 645 (Ala. 1980)

2, 10
12

Bush v. State,
695 So. 2d 70 (Ala. Crim. App. 1995)

7

Doster v. State,
72 So. 3d 50 (Ala. Crim. App. 2010)

7

Harris v. State,
947 So. 2d 1079 (Ala. Crim. App. 2004)

7

Hooks v. State,
286 So. 3d 163 (Fla. 2019)

2

Jackson v. State,
836 So. 2d 915 (Ala. Crim. App. 1999)

7

Lockhart v. State,
163 So. 3d 1088 (Ala. Crim. App. 2013)

7

Shanklin v. State,
187 So. 3d 734 (Ala. Crim. App. 2014)

7

State v. Moore,
969 So. 2d 169 (Ala. Crim. App. 2006)

3, 10

V

TABLE OF AUTHORITIES
(Continued)
Page
State v. Moore,
No. CC-00-1260, 02-646 (Ala. Morgan Cty.
Jan. 1, 2003)

9

State v. Spaziano,
692 So. 2d 174 (Fla. 1997)

6

STATE STATUTES

Ala. Code § 13A-5-46

12

RULES & REGULATIONS

Supreme Court Rule 37.6

1

OTHER AUTHORITIES

Brian Lyman,
Senate Votes to End Judicial Override in
Capital Cases, Montgomery Advertiser, (Feb.
23, 2017),
https://www.montgomeryadvertiser.com/stor
y/news/politics/southunionstreet/2017/02/23/
senate-votes-end-judicial-override-capitalcases/98302650/

8

Stephen P. Garvey,
Aggravation and Mitigation in Capital
Cases: What Do Jurors Think?, 98 Colum. L.
Rev. 1538 (1998)

6

11

TABLE OF AUTHORITIES
(Continued)
Page
Susan D. Rozelle,
The Principled Executioner: Capital Juries'
Bias and the Benefits of True Bifurcation, 38
Ariz. St. L.J. 769 (2006)

6

1
IDENTITY AND INTEREST OF AMICI CURIAE1
Amici are former Alabama and Florida circuit court
judges who presided over capital trials and had
firsthand experience weighing juries' advisory
sentencing verdicts. Amici contend that by giving trial
judges, rather than juries, the independent power to
issue a death sentence, judicial override improperly
substituted the judge as the arbiter of a community's
values—a role traditionally reserved for the jury.
Moreover, Amici experienced that under the judicial
override system, judges had no meaningful guidance
on how to weigh a jury's advisory life-or-death verdict.
Amici contend that judicial override undermined the
reliability of death sentences and therefore support
Petitioner's position that persons sentenced to death
by judicial override ought not to be executed.
The individual Amici are:
Judge Thomas H. Bateman, III, served on the
Circuit Court for Florida's Second Judicial Circuit
Court from 2001 through 2009, and as Leon County
Court Judge from 1990 through 2001. While a jurist,
he served as Associate Dean of the Florida College of
Advanced Judicial Studies and a contributing faculty
member to the AJS course entitled Handling Capital
Cases, under the Chairmanship of Amicus Judge O.H.
Eaton, Jr. Judge Bateman has served as a member of
the Supreme Court of Florida's Criminal Court
Steering Committee and twice served as Chair of The
1 In accordance with Rule 37.6, Amici Curiae affirms that no
counsel for any party authored this brief in whole or in part, and
no counsel or party made a monetary contribution intended to
fund the preparation or submission of this brief. No person other
than Amicus Curiae or its counsel made a monetary contribution
to its preparation or submission. Both Petitioner and Respondent
consented to the filing of this brief and received timely notice.

2
Florida Bar's Criminal Procedure Rules Committee.
Before becoming a Judge, he served as an Assistant
Attorney General for the State of Florida, an Assistant
Public Defender for Orange County, Florida, and a
Deputy Sheriff for the Broward County Sheriffs
Office.
Judge O.H. Eaton, Jr., served on the Circuit
Court for Florida's Eighteenth Judicial Circuit Court
from 1986 through 2010, including as Chief Judge. He
was a member of the Florida Sentencing Commission
from 1991 until 1998, and served as Chair of the
Criminal Justice Section of the Florida Conference of
Circuit Judges from 1994 through 1996. He was
selected to be a member of the American Bar
Association's Florida Capital Punishment Assessment
Committee (2004-2005), and was the Chair of the
Supreme Court of Florida's Criminal Court Steering
Committee from its inception in 2002 until 2010. He
teaches the Handling Capital Cases course at the
Florida College of Advanced Judicial Studies and at
the National Judicial College, University of Nevada,
Reno. A concurring opinion by a Florida Supreme
Court Justice discussing the problems attendant to
Florida's then-applicable capital sentencing
procedures quoted at length a capital sentencing order
by Judge Eaton addressing these very issues. AguirreJarquin v. State, 9 So. 3d 593, 611-12 (Fla. 2009)
(Pariente, J., specially concurring), receded from on
other grounds by Hooks v. State, 286 So. 3d 163 (Fla.
2019).
Judge Glenn E. Thompson served on the Circuit
Court for Alabama's Eighth Judicial Circuit Court
from 1995 through 2019. He overrode a jury's life
recommendation and imposed a death sentence in one
case, but later reversed the conviction because of

3
prosecutorial misconduct. See State v. Moore, 969 So.
2d 169, 170 (Ala. Crim. App. 2006).
INTRODUCTION
This Court has held time and again that to
withstand Eighth Amendment scrutiny, capital
sentencing requires heightened reliability, which in
turn requires heightened procedural safeguards. See,
e.g., Caldwell v. Mississippi, 472 U.S. 320, 323 (1985);
Woodson v. North Carolina, 428 U.S. 280, 305 (1976);
Gregg v. Georgia, 428 U.S. 153, 188-89 (1976) (joint
opinion of Stewart, Powell, and Stevens, JJ.). And this
Court has emphasized the importance of juries in
safeguarding citizens against arbitrary government
action that leads to the unjust deprivation of liberty.
See Duncan v. Louisiana, 391 U.S. 145, 155-56 (1968).
As trial judges, Amici conveyed to jurors the
importance of their service. Amici regularly observed
jurors taking this admonition to heart and performing
their duties cautiously and devotedly. This was
particularly true of those jurors who were called to
serve in capital cases.
Amici believe that judicial override diminished the
role of the jury in a misguided effort to follow this
Court's precedent. As a result, Amici contend that the
fruits of this flawed procedure are tainted, calling into
question the legitimacy of any capital sentence
imposed by judicial override, for at least three reasons.
First, judicial override reduced the jury's role as the
proper reflection of community values, because a
single, elected judge cannot reliably supplant the
deliberative moral judgment of twelve lay jurors.
Second, judicial override tasked judges to decide
whether to accept a jury's advisory life-or-death

4
verdict without any meaningful guidance on how to
weigh that verdict.
Third, the now-abandoned practice of judicial
override reflects a misguided attempt to comply with
this Court's Furman decision.
A nationwide consensus has now formed that
judicial override constitutes an unreliable and
improper way to sentence capital defendants. All
states have abandoned this sentencing practice. Amici
contend that executing defendants who were
sentenced to death by judicial override does not
comport with this country's evolving standards of
decency and would allow the consequences of an
unreliable system to continue despite its unanimous
rejection by every state.

ARGUMENT AND CITATION OF
AUTHORITIES
I.

A Single, Elected Judge Cannot Reliably
Supplant the Deliberative Moral Judgment of Twelve Jurors.

"The purpose of a jury is to guard against the
exercise of arbitrary power—to make available the
commonsense judgment of the community as a hedge
against the overzealous or mistaken prosecutor and in
preference to the professional or perhaps
overconditioned . . . response of a judge." Taylor v.
Louisiana, 419 U.S. 522, 530 (1975) (citing Duncan,
391 U.S. at 155). "Community participation in the
administration of the criminal law, moreover, is not
only consistent with our democratic heritage but is
also critical to public confidence in the fairness of the
criminal justice system." Id. at 530.

5
In recognition of those principles, the four states
that previously employed judicial override have all
abandoned that practice, recognizing that judicial
override was less reliable than simply treating the
jury's recommendation as final. Because depriving a
person of his or her life constitutes a decision of unique
judgment and severity, Amici agree that sentencing in
capital trials is best done by twelve representatives of
the "community as .a whole," Panetti v. Quarterman,
551 U.S. 930, 958 (2007), as they "are more likely to
express the 'conscience of the community"' than are
judges, Ring v. Arizona, 536 U.S. 584, 615-16 (2002)
(Breyer, J., concurring in judgment) (citation omitted).
As Justice Breyer explained in Ring, jurors "possess an
important comparative advantage over judges. . . .
[because] they are more likely to 'express the
conscience of the community' on the ultimate question
of life or death."' 536 U.S. at 615-16 (Breyer, J.,
concurring in judgment) (citation omitted).
Each elected judge brings to the bench his or her
own experience and perspective. While jurors also
have their own experiences and perspectives, Amici
believe a sentence of death emanating from the
considered judgment of twelve lay jurors engaging in
the deliberative process more reliably represents the
community's moral values and conscience than one
imposed by a single judge. Indeed, the decision
whether to impose a sentence of death, which critically
depends on weighing fact-based aggravating factors
against "compassionate or mitigating factors
stemming from the diverse frailties of humankind,"
Woodson, 428 U.S. at 304-05, is so distinctly
dependent upon contemporary community moral
values that it should be made by the community's

6
representatives—jurors—in order to ensure the
reliability that the Eighth Amendment demands.
Death sentences imposed by judicial override also
risked being less reliable than those imposed by juries.
Even where jurors determined the prosecution has
shown the defendant's guilt beyond a reasonable
doubt, they still may have harbored "residual doubt,"
meaning "a state of mind that exists somewhere
between 'beyond a reasonable doubt' and 'absolute
certainty."' Franklin v. Lynaugh, 487 U.S. 164, 188
(1988) (O'Connor, J., concurring). Data compiled by
the Capital Jury Project, including surveys of
thousands of capital jurors, indicates residual doubt
constituted the most significant reason jurors voted for
life sentences.2 Judicial override eliminated the ability
of jurors to spare the life of a defendant as to whom
they harbored residual doubt regarding guilt. See also
Lockhart v. McCree, 476 U.S. 162, 181 (1986) (quoting
from dissenting opinion below that observed "residual
doubt has been recognized as an extremely effective
argument for defendants in capital cases" (citation
omitted)).3
See Stephen P. Garvey, Aggravation and Mitigation in Capital
Cases: What Do Jurors Think?, 98 Colum. L. Rev. 1538, 1562
(1998); see also Susan D. Rozelle, The Principled Executioner:
Capital Juries' Bias and the Benefits of True Bifurcation, 38 Ariz.
St. L.J. 769, 775 (2006) (describing residual doubt as the "most
potent mitigator in capital cases").
2

The death sentences in both cases where the Court upheld
judicial override (Spaziano v. Harris, 468 U.S. 447 (1984), and
Harris v. Alabama, 513 U.S. 504 (1995)) ultimately were reversed
because of unreliable proceedings. In Spaziano, the main trial
witness recanted, which prompted Amicus Judge Eaton to vacate
Spaziano's conviction. State v. Spaziano, 692 So. 2d 174 (Fla.
1997). In Harris, Alabama courts later found the defendant's
3

7
Because the decision whether to impose a death
sentence goes far beyond a strict legal inquiry, a single
elected trial judge cannot reliably supplant the
deliberative moral judgment of twelve jurors
representing the "conscience of the community."
Witherspoon v. Illinois, 391 U.S. 510, 519 (1968). As
noted by Justice Sotomayor in her dissent from the
denial of certiorari in an Alabama judicial override
case, empirical evidence suggests some judges "appear
to have succumbed to electoral pressures" when
judicially overriding the jury's recommended life
sentence. Woodward v. Alabama, 571 U.S. 1045, 134
S. Ct. 405, 408-09 (2013) (Sotomayor, J., dissenting
from denial of certiorari).4 Indeed, some judges told
lawyer to have been ineffective for failing to present mitigation
evidence. The Court of Criminal Appeals found that had counsel
presented mitigating evidence, "it is probable that additional
jurors would have voted for life imprisonment without parole and
that [the sentencing judge] would not have overridden the jury's
recommendation of life imprisonment without the possibility of
parole." Harris v. State, 947 So. 2d 1079, 1131 (Ala. Crim. App.
2004).
At the time of Woodward, Alabama judges had imposed the
death penalty in 95 cases after a jury verdict of life imprisonment,
while only overriding a jury vote to impose the death penalty nine
times. 134 S. Ct. at 405 n.1. By the time Alabama abolished
judicial override, Alabama judges made nearly ten times as many
life-to-death overrides as death-to-life overrides. See C. 431-33.
These statistics undermine the claimed value of judicial override
in reducing arbitrariness, as does the frequency with which
Alabama judges had overridden unanimous jury votes for life
sentences. See Woodward, 134 S. Ct. at 409 & n.7; Bush u. State,
695 So. 2d 70, 81 (Ala. Crim. App. 1995); Jackson v. State, 836 SO.
2d 915, 964 (Ala. Crim. App. 1999); Doster v. State, 72 So. 3d 50,
62 (Ala. Crim. App. 2010); Lockhart v. State, 163 So. 3d 1088,
1097 (Ala. Crim. App. 2013); Shanklin v. State, 187 So. 3d 734,
745 (Ala. Crim. App. 2014).
4

8
Alabama legislators weighing the abolition of judicial
override that electoral concerns fueled their decision to
override life votes.5
Although' Amici endeavored to perform their
responsibilities to the best of their ability, their
considered view is that no single judge can reliably
override and replace the collective conscience of the
community with the heightened degree of reliability
that the Eighth Amendment requires.
II.

Judicial Override Presented Judges with
the Impossible Task of Weighing a Jury's
Advisory Sentencing Verdict.

Capital sentencing requires weighing aggravating
and mitigating circumstances. The former constitute
largely fact-bound circumstances designed to narrow
the class of death-eligible defendants, Lowenfield v.
Phelps, 484 U.S. 231, 244 (1988), while the latter must
take into account a vast array of evidence designed to
ensure that the "sentence imposed . . . reflect[s] a
reasoned moral response to the defendant's
background, character, and crime." Penry v. Lynaugh,
492 U.S. 302, 319 (1989) (quoting California v. Brown,
479 U.S. 538, 545 (1987) (O'Connor, J., concurring)).
After the Court's decision in 1976 in Gregg, all
American capital-sentencing procedures incorporated
See Brian Lyman, Senate Votes to End Judicial Override in
Capital Cases, Montgomery Advertiser, (Feb. 23, 2017),
https://www.montgomeryadvertiser.com/story/news/politics/sout
hunionstreet/2017/02/23/senate-votes-end-judicial-overridecapital-cases/98302650/ (Republican State Senator Dick
Brewbaker: "I did not have a single judge, not one who talked to
me formally or informally, tell me they need to keep judicial
override. .. . They were very frank that people use it to pressure
them in election years.").
6

9
the weighing of aggravating and mitigating
circumstances. 428 U.S. 153. The consideration of
mitigating circumstances must be wide-ranging and
account for circumstances not reducible to sharpedged facts, but rather involving complex, value-laden
judgments. See, e.g., Tennard v. Dretke, 542 U.S. 274,
284 (2004) (holding no factual nexus to crime needed
for mitigating evidence to be relevant); Payne v.
Tennessee, 501 U.S. 808, 822 (1991) (noting there are
"virtually no limits" placed on relevant mitigating
evidence).
Amici have experience weighing advisory jury
verdicts in capital cases. Collectively, they have
accepted the jury's life-or-death verdicts in some cases
and overridden death verdicts in other cases. In their
experience, the advisory jury verdict did not increase
the reliability of the death sentence. Rather, because
judicial override gave judges no meaningful guidance
on how to weigh a jury's advisory verdict, it placed
judges in an impossible position and risked haphazard
outcomes in whether to impose a sentence of death.
In one case where Amicus Judge Thompson
overrode a jury's life verdict and imposed a death
sentence, the jury recommended a life sentence by a
vote of 8-4. Although Alabama did not provide any
standards for weighing the jury's advisory verdict,
Harris, 513 U.S. at 504, Judge Thompson gave
"significant weight" to the jury's verdict. State v.
Moore, No. CC-00-1260, 02-646, Sentencing Order at
16 (Ala. Morgan Cty. Jan. 1, 2003). Ultimately, despite
having misgivings about the strength of the
prosecution's case, Judge Thompson rejected the jury's
recommendation, stating: "[T]he Court cannot
reconcile the jury's verdict of guilt with their
recommendation of life without parole." Id. Soon after

10
the trial, it was discovered that the State had
suppressed exculpatory evidence. As a result of the
State's misconduct, Judge Thompson granted Moore a
new trial and dismissed the indictment. Moore, 969 So.
2d at 170. Moore eventually stood trial again and was
acquitted. Following Moore, Judge Thompson
supported revising Alabama's law in a way that
eliminated judicial override.
As Amicus Judge Eaton 'explained while an active
judge, the guidance provided to judges on how to weigh
advisory verdicts was essentially meaningless in
practice. Aguirre-Jarquin, 9 So. 3d at 611-12
(Pariente, J., specially concurring) (quoting Judge
Eaton's sentencing order imposing death sentence).
The trial judge was to give the jury recommendation
"great weight," yet that subjective term was not
defined by either the statute or case law. Id. (citation
omitted).
Amicus Judge Eaton pointed out another
complicating factor: the jury in Florida made no
findings of fact as to the existence of aggravating or
mitigating circumstances,6 nor what weight should be
given to them, when rendering its sentencing
recommendation. Id. Accordingly, the jury verdict did
not set forth which aggravating factors were found, or
by what vote, nor how the jury weighed the various
aggravating and mitigating circumstances. Id. Thus,
judges charged with the discomforting duty to
substitute their own moral judgment for the
conscience of the community also had to wrestle with
6 In Alabama, juries had to find any aggravating circumstances
beyond a reasonable doubt and would then weigh the aggravating
evidence against any mitigating evidence presented by the
defendant to render its advisory verdict. See Woodward, 134 S.
Ct. at 406.

11
the impossible task of applying an undefined term to
an undefined verdict.
Even if judges had meaningful guidance on how to
weigh the jury's advisory verdict, Amici maintain that
judicial override still would be problematic because it
fundamentally disregards the primacy of the jury.
Courts instruct jurors on the importance of their role,
and "[a]s Mr. Justice Stewart stated in Witherspoon, a
jury in a capital felony trial 'can do little more—and
must do nothing less—than express the conscience of
the community on the ultimate question of life or
death."' Ex parte Bracewell, 407 So. 2d 845, 846-47
(Ala. 1979) (quoting Witherspoon, 391 U.S. at 519),
vacated on other grounds sub nom. Alabama v.
Bracewell, 457 U.S. 1114 (1982). As judges, Amici
observed jurors in trial and regularly watched them
perform their duties with great care. In light of the
diligence with which jurors perform their duty, the
notion of second-guessing—much less overriding—the
jury's reasoned judgment undermined the honor and
privilege of jury duty, which for most citizens is one of
"their most significant opportunit[ies] to participate in
the democratic process." Powers v. Ohio, 499 U.S. 400,
407 (1991).
III. Judicial Override Constitutes a Misguided
Attempt to Comply with Furman.
In Florida and Alabama, judicial override emerged
in response to this Court's decision in Furman v.
Georgia, 408 U.S. 238 (1972). This Court struck down
Alabama's initial post-Furman statute as
incompatible with Furman. Beck v. Alabama, 447 U.S.
625, 639-40 (1980). In response, the Alabama
Supreme Court created a new scheme, which included

12
the possibility of override. Beck v. State, 396 So. 2d
645, 660-63 (Ala. 1980). The Alabama Legislature
then passed a law authorizing override two years later.
Ala. Code § 13A-5-46 (1982). The Alabama Supreme
Court later held that death sentences imposed by
override were consistent with Furman. Ex parte Hays,
518 So. 2d 768, 775 (Ala. 1986).
Similarly, in the century leading up to Furman,
Florida had required juries to make the final
sentencing decision in capital cases. After Furman,
however, the Legislature transferred ultimate
sentencing authority to trial judges, mandating
independent judicial decision-making while retaining
jury participation in the form of an advisory role.
Proffitt v. Florida, 428 U.S. 242, 247-48 (1976)
(plurality opinion) (describing legislative response);
see also Spaziano, 468 U.S. at 474-76 (Stevens., J.,
dissenting) (same).
Neither Alabama's nor Florida's enactment of
statutory provisions authorizing judicial override of a
jury's life sentence recommendation reflected any
judgment, either legislative or judicial, that the
override served an important state interest. Rather,
the override schemes were a product of the states'
misapprehension that judicial override must be
authorized to meet the requirements of Furman.
In Furman, a divided Court held that the Eighth
Amendment prohibits imposition of the death penalty
under statutes that allow juries uncontrolled
discretion to impose death. 408 U.S. at 239-40 (per
curiam). The statutes at issue in Furman failed this
constitutional test because they lacked standards to
distinguish who should live from who should die,
which the Court rejected as facilitating arbitrary

13
capital sentencing. Id. at 293-95 (Brennan, J.,
concurring in judgment).
Each member of the Court wrote a separate opinion
either concurring in or dissenting from the judgment
in Furman. "Predictably, the variety of opinions
supporting the judgment in Furman engendered
confusion as to what was required in order to impose
the death penalty in accord with the Eighth
Amendment." Lockett v. Ohio, 438 U.S. 586, 599
(1978). The Florida and Alabama Legislatures
misconstrued Furman as condemning all discretionary
capital sentencing by juries. To address this perceived
constitutional problem, these legislatures enacted
judicial override.
Legal developments in the ensuing decades have
shown Alabama and Florida's reading of Furman—
that the constitution requires judicial capital
sentencing—was incorrect. This Court has stated
directly that "[s]entencing by the trial judge certainly
is not required by [Furman]." Spaziano, 468 U.S. at
463 n.8.
In practice, judicial override has proven impossible
to employ reliably. Among other reasons, and as
discussed above, a single judge cannot reliably replace
the deliberative moral judgment of jurors; the jury's
advisory verdict did not provide the sentencing judge
with sufficient findings regarding which aggravating
and mitigating circumstances were found or how they
were applied; and sentencing judges lacked any
practical guidance as to how to weigh a jury's advisory
sentencing verdict.
In light of this universal experience, every state
has now eliminated the imposition of death sentences
by judicial override. Amici therefore contend that

14
executing persons sentenced to death under a system
that has been rejected by all states in this country
would be inconsistent with the "evolving standards of
decency that mark the progress of a maturing society."
Atkins v. Virginia, 536 U.S. 304, 311-12 (2002)
(citation omitted).

CONCLUSION
For the foregoing reasons, Amici respectfully
request that this Court grant Petitioner's Petition for
Writ of Certiorari to review the judgment of the
Alabama Court of Criminal Appeals.
Respectfully submitted, September 21, 2020.
/s/ James F. Bogan III
James F. Bogan III
Counsel of Record
Tamara Serwer Caldas
Emilia Stromberg
Kilpatrick Townsend &
Stockton LLP
1100 Peachtree Street NE
Suite 2800
Atlanta, GA 30309
(404) 815-6500
jbogan@kilpatricktownsend.com
Counsel for Amici Curiae

